~v ø
  +'~gS"VlctS.ÛS~



                                               DEPARTMENT OF HEALTH AND HUMAN SERVICES
i rr
"õ~"'.ýJr.;~
                                                              OFFICE OF AUDIT SERVICES
                                                             233 NORTH MICHIGAN AVENUE                          REGION  V
                                                               CHICAGO. ILLINOIS 60601                          OFFICE OF
                                                                                                           INSPECTOR GENERAL


                                                                      December 1,2008


               Report Number: A-05-08-00066

               Mr. Barry S. Maram
               Director
               Ilinois Department of  Healthcare and Family Services
               201 South Grand Avenue East
               Springfield, Ilinois 62763-0002

               Dear Mr. Maram:

               Enclosed is the U.S. Department of        Health and Human Services (HHS), Office ofInspector
               General (OIG), final report entitled "Review of Ilinois' Compliance With the 'Reimbursement
               of State Costs for Provision of      Medicare Part D Drugs' Demonstration Project Requirements."
               We will forward a copy of       this report to the HHS action official noted below.

               Pursuant to the principles of
                                                                                            as amended by
                                                    the Freedom ofInformation Act, 5 U.S.c. § 552,

               Public Law 104-231, OIG reports generally are made available to the public to the extent the
               information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
               will be posted on the Internet at http://oig.hhs.gov.

               If you have any questions or comments about this report, please direct them to the HHS action
               officiaL. Please refer to report number A-05-08-00066 in all correspondence.

                                                                             Sincerely,



                                                                          7Úáu    ~.",
                                                                           Marc Gus fson
                                                                             Regiona /; nspector General
                                                                                for Audit Services


               Enclosure
Page 2 - Mr. Barry S. Maram




HHS Action Official:

Abby L. Block, Consortium Administrator
Consortium for Medicare Health Plans Operations
200 Independence Avenue, SW
Mail Stop 325-H-01
Washington, DC 20201
Department of Health and Human Services
                             OFFICE OF
        INSPECTOR GENERAL




      REVIEW OF ILLINOIS'
     COMPLIANCE WITH THE
  "REIMBURSEMENT OF STATE
    COSTS FOR PROVISION OF
   MEDICARE PART D DRUGS"
   DEMONSTRATION PROJECT
        REQUIREMENTS



                                                       . I

               _, SERVICES

                                  Daniel R. Levinson
                                   Inspector General
       (~".-
       "'~~
        "'4-
           '¿I!Vd30
                                    December 2008
                                    A-05-08-00066
                             Offce of Inspector General
                                                        http:// oig.hhs.gov




The mission of        the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of                 the Department of          Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carring out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Offce of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations

The Offce ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilzes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Offce of Counsel to the Inspector General (OCIG) provides general                            legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. aCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other alG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of I nspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act by establishing the Medicare Part D prescription
drug benefit which provides optional prescription drug coverage for individuals who are entitled
to Medicare Part A or enrolled in Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

With the implementation of Medicare Part D on January 1, 2006, prescription drug coverage for
full benefit dual eligible (dual eligible) beneficiaries was transitioned from Medicaid coverage to
the new Medicare prescription drug benefit. Some States, however, found it necessary to
provide additional funding assistance to its dual eligible population in order to facilitate their
transition into Medicare Part D. To reimburse States for drug costs incurred on behalf of dual
eligible beneficiaries during the transition, CMS implemented the “Reimbursement of State
Costs for Provision of Part D Drugs” Medicare demonstration project pursuant to section
402(a)(1)(A) of the Social Security Amendments of 1967 (codified at 42 U.S.C. section 1395b-
1(a)(1)(A) and expressly made applicable to Part D in section 1860D-42(b)). This voluntary
demonstration project permitted Medicare to reimburse States for dual eligible beneficiaries’ Part
D drug costs to the extent that those costs were not recoverable from a Medicare Part D plan. In
addition, the demonstration project also provided payments to States for low-income subsidy-
entitled beneficiaries’ (non-full benefit dual eligible) Part D drug costs and for certain
administrative costs incurred by States.

OBJECTIVE

Our objective was to determine whether the State of Illinois (Illinois) complied with the CMS
“Reimbursement of State Costs for Provision of Part D Drugs” demonstration project
requirements related to reimbursed drug claims for full benefit dual eligible beneficiaries.

RESULTS OF AUDIT

Illinois complied with CMS’s demonstration project requirements related to reimbursed drug
claims for dual eligible beneficiaries. Illinois utilized its Medicaid payment system to separate
the demonstration claims from those payable under its Medicaid program. Illinois also utilized
its Medicaid system to properly identify beneficiaries as being dually eligible for both Medicare
and full Medicaid benefits and to appropriately pay claims through the demonstration project.
Illinois ensured that all claims reimbursed through the demonstration project were within its
approved demonstration period of January 1 through February 28, 2006. We are not submitting
recommendations to Illinois.




                                                 i
                                                   TABLE OF CONTENTS 


                                                                                                                                  Page

INTRODUCTION......................................................................................................................1


          BACKGROUND .............................................................................................................1 

              Medicare Prescription Drug, Improvement, and Modernization Act of 2003 ..........1 

              Full Benefit Dual Eligible Beneficiaries ................................................................1 

              Demonstration Project ...........................................................................................2

              Illinois’ Participation in the Demonstration Project ................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

               Objective ..............................................................................................................2 

               Scope....................................................................................................................3    

               Methodology ........................................................................................................3         


RESULTS OF AUDIT ................................................................................................................4 





                                                                    ii
                                      INTRODUCTION 


BACKGROUND

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of
2003 amended Title XVIII of the Social Security Act by establishing the Medicare Part D
prescription drug benefit which provides prescription drug coverage for individuals who are
entitled to Medicare Part A or enrolled in Part B. The Centers for Medicare & Medicaid
Services (CMS), which administers Medicare, contracts with private prescription drug plans
and Medicare Advantage plans to offer prescription drug benefits to eligible individuals.

As defined by the MMA, Medicare Part D covered drugs are: drugs available only by
prescription, used and sold in the United States, and used for a medically accepted indication;
biological products; insulin; and vaccines. The definition also includes medical supplies
associated with the injection of insulin (e.g., syringes, needles, alcohol swabs, and gauze).
Certain drugs or classes of drugs or their medical uses are excluded by law from Medicare
Part D coverage. While these drugs or uses are excluded from basic Medicare Part D
coverage, drug plans may choose to include them as part of supplemental benefits, not covered
by Medicare. Some States may also choose to cover these excluded drugs through their
Medicaid programs.

Full Benefit Dual Eligible Beneficiaries

Full benefit dual eligible (dual eligible) beneficiaries are eligible for both Medicare and
comprehensive Medicaid benefits. Pursuant to Title I, Sec.103(c) of the MMA and with the
implementation of Medicare Part D on January 1, 2006, prescription drug coverage for dual
eligible beneficiaries transitioned from Medicaid to Medicare Part D.

To ensure that dual eligible beneficiaries continued to receive needed medications during
the transition, CMS took numerous actions to prevent a lapse in prescription drug coverage.
For example, if dual eligible beneficiaries did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned them to one (auto-assignment). CMS
implemented a new eligibility inquiry process for pharmacies to verify Part D plan assignments
and employed contractors to facilitate enrollment at the point-of-sale.

Despite CMS’s best efforts to promote a smooth transition to Medicare Part D, some dual
eligible beneficiaries, when presenting prescriptions at pharmacies, were determined not to be
enrolled in a Part D plan or a Part D plan could not be billed. Therefore, some States found it
necessary to provide assistance to dual eligible beneficiaries during the transition period by
paying for these beneficiaries’ Medicare Part D drugs.




                                                1

Demonstration Project

To reimburse States for drug costs incurred on behalf of dual eligible beneficiaries during the
transition, CMS implemented the “Reimbursement of State Costs for Provision of Part D
Drugs” Medicare demonstration project pursuant to section 402(a)(1)(A) of the Social Security
Amendments of 1967 (codified at 42 U.S.C. section 1395b-1(a)(1)(A) and expressly made
applicable to Part D in section 1860D-42(b)). This voluntary demonstration project permitted
Medicare to reimburse States for dual eligible beneficiaries’ Part D drug costs to the extent that
those costs were not recoverable from a Medicare Part D plan. In addition, the demonstration
project also provided payments to States for low-income subsidy-entitled beneficiaries’ (non-
full benefit dual eligible) Part D drug costs and for certain administrative costs incurred by
States.

To participate in the demonstration and receive reimbursement for their incurred costs, States
submitted applications to CMS. The application included requirements for participation. By
submitting applications, States agreed to: 1) require pharmacies to bill the Part D plan first
before relying on State payment (the State was the payer of last resort); 2) provide information
on Part D drug claims and administrative costs incurred in a specified format; 3) ensure that
claims submitted were for Part D drugs; 4) separate claims from those payable under other
programs, such as the State Medicaid program; 5) submit claims only for drug costs (not
including beneficiary cost sharing and administrative costs incurred during the demonstration
effective dates; 6) report to CMS on the number of claims, beneficiaries, and expenditures on a
timely basis; and 7) ensure Medicare funding was not used for the Medicaid State match.

Illinois’ Participation in the Demonstration Project

On February 15, 2006, Illinois applied to participate in the demonstration project.1 By
participating, Illinois agreed to pay for dual eligible beneficiaries’ drug claims that should have
been paid under Medicare Part D. Illinois processed these drug claims through its Medicaid
claims processing system. CMS subsequently reimbursed Illinois for these drug claims at
Illinois’ Medicaid rate.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective was to determine whether the State of Illinois (Illinois) complied with the CMS
“Reimbursement of State Costs for Provision of Part D Drugs” demonstration project
requirements related to reimbursed drug claims for full benefit dual eligible beneficiaries.




1
 Illinois’ participation in the demonstration project was retroactive to the implementation of Medicare Part D on
January 1, 2006.


                                                          2

Scope

The audit covered Illinois’ approved demonstration period, January 1 through
February 28, 2006. At the time of our audit, CMS approved reimbursement of 188,796
drug claims totaling $11,487,478.62 for dual eligible beneficiaries. We reviewed only those
internal controls necessary to achieve our objective.

We performed fieldwork at the Illinois Department of Healthcare and Family Services in
Springfield, IL from May 2008 through November 2008.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable laws, regulations, and guidance;

   •	 interviewed Illinois Department of Healthcare and Family Services officials to
      obtain an understanding of Illinois’ Medicaid drug program, the process used to
      identify dual eligible beneficiaries, and the process used to prepare and submit
      claims under the demonstration project;

   •	 obtained the reimbursed claims file for dual eligible beneficiaries for claims

      paid under the demonstration project for the period January 1 through             

      February 28, 2006; 


   •	 obtained the CMS Quarterly Medicaid Statement of Expenditures for the                     

      Medical Assistance Program (CMS-64) for prescribed drugs, for all four                    

      quarters in 2006; 


   •	 compared all claims reimbursed under the demonstration project to all
      prescribed drug claims paid under the CMS-64 for the first and second calendar
      quarters of 2006 to ensure that claims were not paid more than once;

   •	 reviewed all claims paid under the demonstration project to ensure that the                   

      claim dates of service were during the demonstration project period, the drug                     

      was a covered Part D drug, and any cost sharing amounts on the part of the            

      beneficiary were not included on the claim to Medicare; 


   •	 reviewed a judgmentally selected sample of 30 beneficiaries whose claims were
      paid under the demonstration project and reviewed Illinois’ methodology to
      classify the beneficiaries as dual eligible;

   •	 obtained and reviewed guidance issued by Illinois to the pharmacies;




                                                3

   •	 obtained and reviewed the methodology of the State Medicaid payment rate for
      pharmacy products to ensure the reimbursement amount under the demonstration
      project was limited to the Medicaid payment rate; and

   •	 reviewed Illinois’ procedures to ensure that Medicare funding under the demonstration
      was not used as State Medicaid matching funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

Illinois complied with CMS demonstration project requirements related to reimbursed drug
claims for dual eligible beneficiaries. Illinois utilized its Medicaid payment system to separate
the demonstration claims from those payable under its Medicaid program. Illinois also utilized
its Medicaid system to properly identify beneficiaries as being dually eligible for both
Medicare and full Medicaid benefits, to ensure that only claims for dual eligible beneficiaries
were submitted for the demonstration project, and to appropriately pay claims through the
demonstration project. Illinois ensured that all claims reimbursed through the demonstration
project were within its approved demonstration period of January 1 through February 28, 2006.
We are not submitting recommendations to Illinois.




                                                4

